<html>
<title> - THE EQUALITY ACT (H.R. 5): ENSURING THE RIGHT TO LEARN AND WORK FREE FROM DISCRIMINATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  THE EQUALITY ACT (H.R. 5): ENSURING
                    THE RIGHT TO LEARN AND WORK FREE
                          FROM DISCRIMINATION

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 9, 2019
                               __________

                           Serial No. 116-16
                               __________

      Printed for the use of the Committee on Education and Labor

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
                           
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-591 PDF                 WASHINGTON : 2019               
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 9, 2019....................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     4
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Gallagher Warbelow, Ms. Sarah, JD, Legal Director, Human 
      Rights Campaign............................................    30
        Prepared statement of....................................    32
    Hedren, Mr. Patrick, JD, Vice President of Labor, Labor, 
      Legal and Regulatory Policy, National Association of 
      Manufacturers..............................................    13
        Prepared statement of....................................    15
    Lorber, Mr. Lawrence, JD, Senior Counsel, Seyfarth Shaw LLP..    22
        Prepared statement of....................................    24
    Shappley, Ms. Kimberly, RN, Nurse, Ojeda Middle School, Del 
      Valle ISD, Faith Outreach Coordinator, Equality TX.........     8
        Prepared statement of....................................    10

Additional Submissions:
    Chairwoman Bonamici:
        Letter from the Women's Rights and Gender Justice 
          Organizations..........................................    80
        Letter from the Business Coalition.......................    83
        Letter dated April 3, 2019...............................   157
        Letter dated April 5, 2019, from the National Women's Law 
          Center.................................................   107
        Letter dated April 8, 2019, from AAUW....................   102
        Map: Education...........................................   106
        Prepared statement from the National Center for 
          Transgender Equality...................................   110
        Letter dated April 8, 2019 from the Chamber of Commerce..   160
        Letter dated April 8, 2019 from the American Civil 
          Liberties Union (ACLU).................................   161
        Letter dated April 8, 2019...............................   170
        Letter dated April 8, 2019 from American Atheists........   245
        Letter dated April 9, 2019 from Alaska Air Group.........   177
        Letter dated April 10, 2019 from UCLA School of Law 
          Williams Institute.....................................   179
        Letter dated April 11, 2019..............................   183
        Letter dated April 12, 2019 from HR Policy Association...   187
        Letter dated April 12, 2019 from UCLA School of Law 
          Williams Institute.....................................   188
        Letter dated April 17, 2019 from University of 
          Massachusetts Amherst..................................   192
        Letter dated April 17, 2019 from University of Michigan..   195
        Letter dated April 18, 2019 from UCLA School of Law 
          Williams Institute.....................................   197
        Letter dated April 19, 2019 from American Psychological 
          Association............................................   202
        Letter dated April 22, 2019 from Equality California.....   206
        Letter dated April 22, 2019 from Aspen Snowmass..........   208
        Letter dated April 22, 2019 from UCLA School of Law 
          Williams Institute.....................................   210
        Letter dated April 22, 2019 from UCLA School of Law 
          Williams Institute.....................................   213
        Letter dated April 22, 2019 from The Leadership 
          Conference on Civil and Human Rights...................   215
        Letter dated April 22, 2019 from Lambda Legal............   217
        Letter dated April 22, 2019 from ADL.....................   242
        Prepared statement from Center for American Progress.....   247
        United States Court of Appeals (Case 18-2574)............   258
        Letter from the National LGBTQ Task Force................   297
        The Equality Act and Religion............................   302
        Link: Intersecting Injustice.............................   308
        Link: UCLA School of Law Williams Institute..............   308
    Mr. Comer:
        Letter dated March 20, 2019, from the United States 
          Conference of Catholic Bishops.........................   145
        Letter dated April 4, 2019, from the Women's Leberation 
          Front, Concerned Women for America Legislative Action 
          Committee, Hands Across the Aisle......................   127
        Letter dated April 5, 2019, from the American Association 
          of Christian Schools (AACS)............................   130
        Letter dated April 8, 2019, from the Association of 
          Christian Schools International (ACSI).................   132
        Letter dated April 8, 2019, from the Family Policy 
          Alliance...............................................   135
        Letter dated April 8, 2019...............................   147
        Letter dated April 9, 2019...............................   121
        Letter dated April 9, 2019...............................   124
        Article: The Transgender War on Women....................   153
        Letter dated April 23, 2019 from the C12 Group...........   309
    Mr. Hendren:
        Letter dated April 5, 2019, from Salesforce..............   313
        Prepared statement from Center from General Mills........   314
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the state of Virginia:
        Letter from the National Women's Law Center..............    61
        Prepared statement from the Congressional Research 
          Service................................................    64
        Questions submitted for the record.......................   318
    Trone, Hon. David J., a Representative in Congress from the 
      state of Maryland:
        Letter dated April 9, 2019, from the National Association 
          of Manufacturers.......................................    96
     Ms. Warbelow responses to question submitted for the record.   320

 
                  THE EQUALITY ACT (H.R. 5): ENSURING
                   THE RIGHT TO LEARN AND WORK FREE
                         FROM DISCRIMINATION

                              ----------                              


                         Tuesday, April 9, 2019

                        House of Representatives

                   Committee on Education and Labor,

            Subcommittee on Civil Rights and Human Services

                            Washington, DC.

                              ----------                              

    The subcommittees met, pursuant to notice, at 2:02 p.m., in 
room 2175, Rayburn House Office Building. Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Schrier, Hayes, Trone, 
Lee, Comer, Thompson, and Johnson.
    Also present: Representatives Takano, Castro, Davis, Scott, 
and Foxx.
    Staff present: Nekea Brown, Deputy Clerk; David Dailey, 
Senior Counsel; Emma Eatman, Press Aide; Daniel Foster, Health 
and Labor Counsel; Christian Haines, General Counsel Education; 
Alison Hard, Professional Staff Member; Eli Hovland, Staff 
Assistant; Eunice Ikene, Labor Policy Advisor; Stephanie Lalle, 
Deputy Communications Director; Richard Miller, Director of 
Labor Policy; Max Moore, Office Aid; Veronique Pluviose, Staff 
Director; Carolyn Ronis, Civil Rights Counsel; Loredana 
Valtierra, Education Policy Fellow; Banyon Vassar, Deputy 
Director of Information Technology; Cyrus Artz, Minority 
Parliamentarian; Marty Boughton, Minority Press Secretary; 
Courtney Butcher, Minority Director of Coalitions and Members 
Services; Rob Green, Minority Director of Workforce Policy; Amy 
Raaf Jones, Minority Director of Education and Human Resources 
Policy; John Martin, Minority Workforce Policy Counsel; Sarah 
Martin, Professional Staff Member; Hannah Matesic, Minority 
Legislative Operations Manager; Kelley McNabb, Minority 
Communications Director; Brandon Renz, Minority Staff Director; 
Alex Ricci, Minority Professional Staff Member; Ben Ridder, 
Minority Legislative Assistant; Meredith Schellin, Minority 
Deputy Press Secretary and Digital Advisor; and Heather Wadyka, 
Minority Staff Assistant.
    Chairwoman BONAMICI. The Committee on Education and Labor 
will come to order. Welcome, everyone.
    I note that a quorum is present, and I ask unanimous 
consent that committee members, Congressman Mark Takano of 
California, Congresswoman Susan Davis of California, and 
Congresswoman Lori Trahan of Massachusetts, be permitted to 
participate in today's hearing with the understanding that 
their questions will come only after all members of the Civil 
Rights and Human Services Subcommittee on both sides of the 
aisle who are present have had an opportunity to question the 
witnesses.
    I also ask unanimous consent that Congressman David 
Cicilline of Rhode Island be permitted to participate in 
today's hearing with the understanding that his questions will 
come only after all members of the Civil Rights and Human 
Services Subcommittee, and members of the full committee on 
both sides of the aisle who are present, have had an 
opportunity to question the witnesses.
    Without objection, so ordered.
    The committee is meeting today for a legislative hearing to 
hear testimony on the Equality Act, H.R. 5, ensuring the right 
to learn and work free from discrimination.
    Pursuant to Committee Rule 7C, opening statements are 
limited to the chair and ranking member. This allows us to hear 
from our witnesses sooner and provides all members with 
adequate time to ask questions. And I do want to note that at 
some point in the next probably half an hour we will be 
breaking to vote and we will be coming back.
    I recognize myself now for the purpose of making an opening 
statement.
    Today, we are holding a legislative hearing on H.R. 5, the 
Equality Act legislation to guarantee and expand civil rights 
protections for LGBTQ Americans. And I want to thank our 
witnesses for being here today.
    The struggle against discrimination in the United States is 
as old as the country itself. For generations marginalized 
people have fought and sacrificed for the inalienable rights of 
life, liberty, and the pursuit of happiness to all Americans.
    The Equality Act is the next chapter in this story.
    From the raid on Stonewall in 1969 to the victory of 
marriage equality in 2015, we have made significant progress 
toward becoming a more inclusive country for the LGBTQ 
population.
    But we are still far from equality for all. In fact, in a 
majority of States today there are no clear, comprehensive 
protections for LGBTQ individuals in education, employment, 
housing, health, and other everyday opportunities and services.
    Instead, we rely on a patchwork of State laws that leave 
millions of LGBTQ Americans uncertain about whether their 
rights in humanity will be recognized in the State where they 
happen to be living, working, or visiting.
    In many parts of the country, an LGBTQ worker can get 
married on a Saturday, post photos of their wedding to social 
media on Sunday, and be fired on Monday because of who they 
love. Because of who they are.
    This scenario is a reality for millions of LGBTQ Americans. 
In fact, 63 percent of LGBTQ people in this country have 
experienced discrimination in their everyday lives.
    Victims include workers, nearly half of whom have been 
subjected to discrimination in the workplace. They include the 
nearly one quarter of all LGBTQ Americans who forgo medical 
care to avoid the discrimination in the health care system. And 
they include students and parents and families of LGBTQ 
individuals, like Kimberly Shappley, who will testify today 
about her struggle to protect her 8-year-old transgender 
daughter, Kai, from discrimination at school. And we welcome 
Kai to the hearing today.
    We cannot ignore stories like Kai's or pretend that they 
are isolated incidents. We cannot accept the status quo in 
which an individual's basic civil rights are recognized in one 
State, but then potentially cease to exist when they cross 
State lines. And we cannot address the widespread 
discrimination affecting the LGBTQ community, especially 
transgender people of color, without recognizing and protecting 
their full identity. We must see people for who they are and 
for all they are. We must not diminish their humanity or their 
potential.
    That is why we are discussing the Equality Act today. This 
legislation, introduced by Representative David Cicilline and 
supported by 240 bipartisan members of the House of 
Representatives, is our opportunity to affirm that this 
country's landmark civil rights guarantee all people the right 
to be safe, secure, and free from discrimination.
    The Equality Act will amend longstanding civil rights laws, 
including the Civil Rights Act of 1964, to clarify the 
prohibitions against discrimination on the basis of sex 
includes gender identity and sexual orientation.
    Specifically, the bill simply adds the words: sex, 
including sexual orientation and gender identity, as a 
protected characteristic. Where sex is already included as a 
protected characteristic, it adds: including sexual orientation 
and gender identity.
    This language is to explicitly prohibit discrimination in 
federally assisted programs, and it will make clear that 
federally supported schools cannot discriminate against 
students and employees.
    And it will also make clear that LGBTQ adults and children 
cannot be denied a medical checkup, counseling, therapy, or 
other primary care services because of their sexual orientation 
or gender identity.
    Today, we may hear excuses about why Congress cannot or 
should not guarantee protections for LGBTQ Americans. We may 
hear claims that the Equality Act will endanger religious 
freedom or put women's rights and safety at risk.
    But we can look to the 20 States already providing these 
explicit protections and know that such claims are unfounded. 
In States like my home State of Oregon, where the Oregon 
Equality Act passed in 2008 with my support as a then State 
legislator, the predictions based on fear have not happened, 
and in fact, women have experienced expanded rights and 
protections.
    We cannot let fear impede progress. The American story is 
one of expanding equality for marginalized people. Today, we 
are writing an important passage in its latest chapter.
    I am going to recognize the ranking member, but I want to 
before I do that echo Judiciary Committee Chairman Jerry 
Nadler, who convened a hearing on this bill last week. To the 
LGBTQ and gender nonconforming people who are watching this 
hearing today, you may be told that you are not welcome. You 
may hear that your identity is only ``temporary confusion,'' 
and you may have your humanity questioned.
    To these individuals, we see you. We affirm you. And we are 
here to fight alongside you to make sure that all Americans 
have the freedom to be who we are.
    With that, I thank the witnesses, again, for being with us, 
and I recognize Ranking Member Comer for his opening statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    Today, we are holding a legislative hearing on H.R. 5, the Equality 
Act--legislation to guarantee and expand civil rights protections for 
LGBTQ Americans. I want to thank our witnesses for being with us today.
    The struggle against discrimination in the United States is as old 
as the country itself. For generations, marginalized people have fought 
and sacrificed for the inalienable rights of life, liberty, and the 
pursuit of happiness to all Americans.
    The Equality Act is the next chapter in this story.
    From the raid on Stonewall in 1969 to the victory of marriage 
equality in 2015, we have made significant progress toward becoming a 
more inclusive country for the LGBTQ population.
    But we are still far from equality for all. In fact, in a majority 
of States today, there are no clear, comprehensive protections for 
LGBTQ individuals in education, employment, housing, health, and other 
everyday services and opportunities.
    Instead, we rely on a patchwork of State laws that leaves millions 
of LGBTQ Americans uncertain about whether their rights and humanity 
will be recognized in the State where they happen to be living, 
working, or visiting.
    In many parts of the country, an LGBTQ worker can get married on 
Saturday, post photos of their wedding to social media on Sunday, and 
be fired on Monday because of who they love. Because of who they are.
    This scenario is a reality for millions of LGBTQ Americans. In 
fact, 63 percent of LGBTQ people in this country have experienced 
discrimination in their everyday lives.
    Victims include workers, nearly half of whom have been subjected to 
discrimination in the workplace. They include the nearly one quarter of 
all LGBTQ Americans who forgo medical care to avoid the discrimination 
in the health care system. And they include students and parents and 
families of LGBTQ individuals like Kimberly Shappley, who will testify 
today about her struggle to protect her 8-year-old transgender 
daughter, Kai, from discrimination at school.
    We cannot ignore stories like Kai's or pretend that they are 
isolated incidents. We cannot accept the status quo, in which an 
individual's basic civil rights are recognized in one State, but then 
potentially cease to exist when they cross State lines. And we cannot 
address the widespread discrimination affecting the LGBTQ community 
especially transgender people of color--without recognizing and 
protecting their full identity. We must see people for who they are and 
for all they are. We must not diminish their humanity or their 
potential.
    That is why we are discussing the Equality Act today. This 
legislation, introduced by Representative David Cicilline and supported 
by 240 bipartisan members of the House of Representatives, is our 
opportunity to affirm that this country's landmark civil rights laws 
guarantee all people the right to be safe, secure, and free from 
discrimination.
    The Equality Act will amend long-standing civil rights laws, 
including the Civil Rights Act of 1964, to clarify that prohibitions 
against discrimination on the basis of sex includes gender identity and 
sexual orientation.
    Specifically, the bill simply adds the words: sex, including sexual 
orientation and gender identity, as a protected characteristic. Where 
sex is already included as a protected characteristic, it adds: 
including sexual orientation and gender identity.
    This language to explicitly prohibit discrimination in federally 
assisted programs will make clear that federally supported schools 
cannot discriminate against students and employees.
    And it will also make clear that LGBTQ adults and children cannot 
be denied a medical checkup, counseling and therapy, or other primary 
care services because of their sexual orientation or gender identity.
    Today, we may hear excuses about why Congress cannot or should not 
guarantee protections for LGBTQ Americans. We may hear claims that the 
Equality Act will endanger religious freedom or put women's rights and 
safety at risk.
    But we can look to the 20 States already providing these explicit 
protections and know that such claims are unfounded. In States like my 
home State of Oregon, where the Oregon Equality Act passed in 2008 with 
my support as a then State legislator, the predictions based on fear 
have not happened and in fact, women have experienced expanded rights 
and protections.
    We cannot let fear impede progress. The American story is one of 
expanding equality for marginalized people and, today, we are writing 
an important passage in its latest chapter.
    Before I recognize the Ranking Member, I want to echo Judiciary 
Chairman Nadler, who convened a hearing on this bill last week. To all 
the LGBTQ and gender nonconforming people watching this hearing today, 
you may:
    * Be told that you are not welcome,
    * You may hear that your identity is only--quote--``temporary 
confusion,''
    * And you may have your humanity questioned.
    To those individuals, we see you. We affirm you. And we are here to 
fight alongside you to make sure that all Americans have the freedom to 
be who we are.
    With that, I thank the witnesses, again, for being with us and I 
now recognize Ranking Member Comer for his opening statement.
                                 ______
                                 
    Mr. COMER. Thank you, Madam Chairman, for yielding. And I 
want to add my welcome to the witnesses for being here today. 
You have quite a task ahead of you.
    This is the first hearing of this committee, which has a 
referral on H.R. 5 that is scheduled on the bill, and it is 
being considered a legislative hearing. That means we are 
supposed to talk about the bill itself.
    However, we skipped the step of holding a hearing on the 
underlying issues of the bill. I am sure there are reasons for 
that, but that means our members have not had the opportunity 
to participate in a hearing focused on information gathering on 
these issues and how they intersect with American schools and 
workplaces until now.
    So you have signed up for a huge task. A bill with a name 
like the Equality Act sounds like a bill that in some way 
advocates for all people. That is what we strive for in this 
country, equality before the law. That is why over the more 
than two centuries this country has existed we have thankfully 
updated our laws to right past wrongs and bring us closer to 
treating all people with the dignity they deserve.
    But as I look at H.R. 5 and learn more about what is in the 
bill, I am deeply troubled, and I believe most Americans would 
be deeply troubled by what is really there. This bill is 
following in the tradition of others we have seen so far 
throughout Congress, a clever name and allegedly noble purpose, 
but a vehicle for serious harmful consequences. It is 
completely unacceptable that this bill today totally guts the 
Religious Freedom Restoration Act of 1993, this country's 
flagship law in defense of individual religious freedom.
    H.R. 5 professes to protect Americans by prohibiting 
discrimination based on a ``perception or belief even if 
inaccurate.'' This alters Federal nondiscrimination law in ways 
that will have unintended effects we cannot know sitting here 
today.
    Furthermore, the bill carries clear mandates for sweeping 
changes and accommodations that will prove costly, burdensome, 
and problematic for small businesses and schools.
    I am concerned about the future ramifications of codifying 
ill-defined concepts into our Nation's civil rights laws and 
the harm this could bring to already vulnerable populations.
    I am fortunate to represent the people of Central and 
Western Kentucky, folks who believe in human dignity and fair 
treatment for their fellow citizens. The poor execution of this 
bill, I am afraid, will result in certain persecution for 
millions of innocent Americans who are still under the 
impression that religious freedom is a fundamental American 
right.
    Equality and freedom must coexist. H.R. 5 totally redefines 
one and delivers a serious blow to the other.
    Thank you, Madam Chairman, and I yield back.
    [The statement of Mr. Comer follows:]

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    Thank you for yielding.
    I want to add my welcome to all the witnesses for being here today. 
You have quite the task ahead of you. This is the first hearing this 
Committee, which has a referral on H.R. 5, has scheduled on the bill, 
and it's being considered a legislative hearing. That means we're 
supposed to talk about the bill itself. However, we skipped the step of 
holding a hearing on the underlying issues of the bill. I'm sure there 
are reasons for that, but that means our members haven't had the 
opportunity to participate in a hearing focused on information 
gathering on these issues and how they intersect with American schools 
and workplaces until now. So, you've signed up for a huge task.
    A bill with a name like ``the Equality Act'' sounds like a bill 
that, in some way, advocates for all people. That's what we strive for 
in this country--equality before the law. That's why, over the more 
than two centuries this country has existed, we have thankfully updated 
our laws to right past wrongs and bring us closer to treating all 
people with the dignity they deserve.
    But as I look at H.R. 5 and learn more about what's in the bill, 
I'm deeply troubled, and I believe most Americans would be deeply 
troubled, by what's really there. This bill is following in the 
tradition of others we have seen so far throughout Congress. A clever 
name, an allegedly noble purpose, but a vehicle for serious, harmful 
consequences.
    It's completely unacceptable that this bill totally guts the 
Religious Freedom Restoration Act of 1993--this country's flagship law 
in defense of individual religious freedom.
    H.R. 5 professes to protect Americans by prohibiting discrimination 
based on a ``perception or belief, even if inaccurate.'' This alters 
Federal nondiscrimination law in ways that will have unintended effects 
we cannot know sitting here today. Furthermore, the bill carries clear 
mandates for sweeping changes in accommodations that will prove costly, 
burdensome, and problematic for small businesses and schools.
    I am concerned about the future ramifications of codifying ill-
defined concepts into our Nation's civil rights laws and the harm this 
could bring to already vulnerable populations.
    I'm fortunate to represent the people of central and western 
Kentucky--folks who believe in human dignity and fair treatment for 
their fellow citizens. Some of the things I see in the Equality Act go 
beyond the pale of anything I've heard--from anyone. The poor execution 
of this bill, I'm afraid, will result in certain persecution for 
millions of innocent Americans who are still under the impression that 
religious freedom is a fundamental American right.
    Equality and freedom must coexist. H.R. 5 totally redefines one and 
delivers a serious blow to the other.
    I yield back.
                                 ______
                                 
    Chairwoman BONAMICI. Without objection, all other members 
who wish to insert written statements into the record may do so 
by submitting them to the committee clerk electronically in 
Microsoft Word format by 5 p.m. on April 22, 2019.
    I am pleased to recognize my colleague and a member of the 
Full Committee on Education and Labor, Congressman Joaquin 
Castro of Texas to introduce the first witness.
    Mr. CASTRO. Thank you, Chairwoman.
    I would like to introduce a fellow Texan, Kimberly 
Shappley. In Texas, we have seen a backlash, especially among 
some of our politicians, against movements toward equality. But 
as Kimberly and her daughter, Kai, show, our State is changing 
in a positive and amazing direction.
    Kimberly was propelled into advocacy by her 8-year-old 
daughter, her 8-year-old transgender daughter, Kai. With 
Kimberly's support, Kai socially transitioned at the age of 4. 
In her position as faith outreach coordinator for Equality 
Texas, she has worked with and educated universities, Christian 
congregations, and church leaders. In 2017, Kimberly testified 
before the Texas State Senate in opposition to S.B. 3, a bill 
that would have prohibited transgender individuals from using 
the restroom that aligns with their gender identity. Her family 
story has appeared on the Today Show, HBO, the Huffington Post, 
and Good Housekeeping, among others, and we are very proud to 
welcome Kimberly here today to testify. Thank you for being 
here.
    Chairwoman BONAMICI. Thank you, Mr. Castro. And welcome, 
Ms. Shappley.
    And I will now introduce the remaining three witnesses.
    Patrick Hedren is vice president for Labor, Legal, and 
Regulatory Policy at the National Association of Manufacturers. 
Mr. Hedren leads NAM's advocacy before Congress and the 
executive branch and previously served as senior counsel for a 
Fortune 15 manufacturing company.
    Lawrence Lorber--did I get it right? Is senior counsel at 
Seyfarth Shaw LLP. He is an experienced employment law 
practitioner who counsels and represents employers in 
connection with all aspects of labor and employment law. He was 
appointed by congressional leadership as one of the five 
original directors of the Office of Compliance charged with 
implementing the congressional Account Ability Act applying 11 
labor and employment laws to the Congress and congressional 
entities.
    Sarah Warbelow serves as legal director for the Human 
Rights Campaign (HRC), leading the organization's team focused 
on Federal, State, and municipal policy. She also coordinates 
HRC's advocacy efforts as amicus curiae, or friend of the 
court, in litigation affecting the LGBTQ community. She 
previously served as HRC's State legislative director, working 
with State and local legislators and LGBTQ advocacy 
organizations in pursuing their LGBTQ-related legislative 
priorities.
    I have a couple of instructions for the witnesses. We 
appreciate you for being here today and look forward to your 
testimony.
    Let me remind the witnesses that we have read your written 
statements. They will appear in full in the hearing record.
    Pursuant to Committee Rule 7d and committee practice, each 
of you is asked to limit your oral presentation to a 5 minute 
summary of your written statement. Also, let me remind the 
witnesses that pursuant to Title 18 of the U.S. Code Section 
1001, it is illegal to knowingly and willfully falsify any 
statement representation, writing, document, or material fact 
presented to Congress or otherwise conceal or cover up a 
material fact.
    Before you begin your testimony, please reminder to press 
the button on the microphone in front of you so it will turn 
the microphone on and members can hear you. And as you begin to 
speak the light in front of you will turn green. After 4 
minutes it will turn yellow to signal that you have 1 minute 
remaining. When the light turns red, your 5 minutes have 
expired and we ask you to please wrap up.
    We are going to let the entire panel make their 
presentations before we move to member questions. When 
answering a question, please again remember to turn your 
microphone on.
    I will first recognize Kimberly Shappley.

STATEMENT OF KIMBERLY SHAPPLEY, RN, SCHOOL NURSE, OJEDA MIDDLE 
  SCHOOL, DEL VALLE ISD, FAITH OUTREACH COORDINATOR, EQUALITY 
                             TEXAS

    Ms. SHAPPLEY. Good afternoon, Chairwoman Bonamici, Ranking 
Member Comer, and members of the committee. My name is Kimberly 
Shappley. I was born and raised in the south. I am a school 
nurse, an ordained evangelical minister, and the proud mother 
of a beautiful transgender 8-year-old girl named Kai.
    My family and I used to live in Pearland, Texas, an 
ultraconservative area that was once a great fit for my strong 
evangelical faith and tea party ideology until we moved 2 years 
ago. You see, because of my faith and background, I was not 
always accepting of the fact that my daughter is transgender, 
nor did my heart and mind change overnight about lesbian, gay, 
bisexual and transgender people. It has been a years' long 
process that only happened because of Kai.
    Even before the age of 2, Kai's mannerisms were notably 
feminine. She chose traditionally female roles and toys 
traditionally for girls. Immediately, I intervened. I requested 
that the daycare put away the girl toys so Kai could not play 
with them. But by 3 years old, Kai was telling anyone who would 
listen that she is a girl. That is when I implemented a home-
remedy version of conversion therapy. I hated it, but I felt 
responsible to save my child's soul. Things changed for me when 
I overheard Kai praying for Jesus to take her home to be with 
him forever. That is when my knowledge of science finally 
overrode my poor theology. I remembered the data on suicide 
risk for transgender youth whose gender identity is not 
supported by their families. So Kai socially transitioned at 4-
1/2.
    Around that time, President Obama issued guidance for 
schools to let transgender children use the bathrooms that 
matched their gender identity, a hopeful development. At first, 
I thought no one had to know that Kai was transgender. I spoke 
to Kai's school principal about respecting that privacy and 
allowing her to use the girl's restroom before she started 
school. But that could not remain a secret in our town, nor was 
it authentic to who Kai is. Our district superintendent 
compared transgender people to pedophiles and polygamists in a 
public statement. The Lieutenant Governor told district 
superintendents not to follow the Obama guidance.
    The result for my daughter was a terrible school 
environment. Kai was frequently locked out of the only restroom 
she had access to, leaving her to have accidents in front of 
her peers. She was frequently reminded of her birth name by 
staff members and even by teachers. Peers bullied her with 
little or no intervention from school staff, until 1 day she 
came home and told me that she could not take it anymore. I 
relocated my family 2 weeks later to Austin, leaving the area 
that I had known for more than 25 years to save her. To this 
day, I have friends and family who I do not communicate with 
because I accept my daughter.
    When I enrolled her in Austin ISD, we were welcomed by a 
sign that read, ``We are proud to be a safe, supportive, and 
inclusive campus.'' And I wept. For the first time in a long 
time I felt that she would be safe. Her first day of school she 
ran home to write in her diary because she had the best day 
ever. She had freely used the appropriate restroom at school. 
In Austin ISD, parents do not complain, and her classmates 
invite her for sleepovers. District leadership has set a 
standard to be kind and truly inclusive, and the staff has made 
note of Kai's gifted intelligence. Her former school had been 
too focused on her identity that they never even noticed her 
IQ.
    I currently work with Equality Texas as faith outreach 
coordinator and I frequently speak in conservative spaces. I 
consider my philosophy as an activist one of the most important 
things that I have learned as a nurse. Educate people by 
meeting them right where they are. Because of this mindset and 
the mindset that I overcame, I am uniquely qualified to do 
this.
    But I will not always be here to protect my daughter. She, 
trans kids like her, and LGB kids need the Equality Act because 
they deserve a future where they will not experience 
discrimination at school, when they apply for a job, or rent an 
apartment. Our country had determined long ago that 
discrimination is wrong. Choosing to exclude people for how 
they were born is not an American value. We must do better.
    I welcome questions, and I appreciate dialog, even if we 
disagree. And I thank you for inviting me to share our story.
    [The statement of Ms. Shappley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you very much, Ms. Shappley, for 
your testimony and for participating. And thank you, Kai, for 
being here today.
    Next, I recognize Mr. Hedren for 5 minutes for your 
testimony.

STATEMENT OF PATRICK HEDREN, JD, VICE PRESIDENT OF LABOR, LEGAL 
  AND REGULATORY POLICY, NATIONAL ASSOCIATION OF MANUFACTURERS

    Mr. HEDREN. Chair Bonamici, Ranking Member Comer, and 
members of the subcommittee, it is an honor to testify in front 
of you today on the workplace provisions in H.R. 5, the 
Equality Act.
    My name is Patrick Hedren, and I am the vice president of 
labor, legal, and regulatory policy for the National 
Association of Manufacturers (NAM).
    The NAM is the Nation's largest industrial trade 
association and the voice for more than 12.8 million men and 
women who make things in America. We represent more than 14,000 
manufacturers, of which upwards of 90 percent are small or 
medium-sized.
    The NAM is committed to achieving a policy agenda that 
helps manufacturers grow and create jobs. We also believe that 
equal opportunity is a key pillar of our great democracy, one 
that allows every individual to pursue the American dream based 
on his or her own talents and qualifications.
    Manufacturers and the business community have made great 
strides already in providing nondiscrimination protections for 
our LGBT employees. There is still further to go, however, and 
manufacturers believe now is the right time for Congress to act 
to help our country get there.
    That is why in March the NAM joined with now 46 other 
industry associations representing a stunning breadth of the 
American economy in support of the Equality Act. In our view, 
amending the Civil Rights Act of 1964 to include explicit 
nondiscrimination protections based on sexual orientation and 
gender identity is a smart approach. It is less burdensome from 
a business or economic perspective than other methods. In fact, 
we believe a Federal standard will help manufacturers better 
attract and retain a talented work force which is greatly 
needed as we face a major skills gap.
    According to the NAM's most recent quarterly outlook 
survey, 71.3 percent of manufacturers expressed worry about 
their ability to attract and retain the work force they will 
need moving forward. There are nearly half a million unfilled 
jobs in a sector already and about 2.4 million jobs could go 
unfilled by 2028.
    Attracting talented employees is a multifaceted effort but 
manufacturers have known for years that an inclusive workplace 
with meaningful LGBT protections helps them hire and retain the 
best possible work force.
    Manufacturers have been some of the strongest leaders in 
creating a more welcoming workplace as outlined in my written 
testimony. The Equality Act would assist our efforts by helping 
manufacturers ensure that every employee knows they have a 
right to feel safe from discrimination, harassment, or worse on 
the manufacturing floor.
    Many States and hundreds of localities have already 
explicitly protected residents from sexual orientation and 
gender identity-based discrimination in the workplace, all with 
slightly different requirements and definitions. A uniformed 
Federal approach will help business by providing a clear basic 
level of nondiscrimination protection across the States. This 
consistent approach would give certainty to employees who may 
wish to move from one facility to another, and it would 
establish predictable baseline rules for employers, making it 
more cost-effective to educate employees and enforce these 
protections.
    The framework of Title VII brings with it two important 
pragmatic features--a basic applicability threshold of 15 or 
more employees, and a religious exemption that allows employers 
to differentiate between employees based on a bona fide 
occupational qualification. The 15 employee applicability 
threshold serves principally to protect smaller firms from the 
burden of compliance and oversight or red tape that applies to 
larger employers. Businesses with 15 or more employees already 
must understand and comply with Title VII.
    This fact is a key benefit of the Equality Act. The BFOQ 
defense allows religious employers to maintain their religious 
values and teachings in making hiring decisions for specific 
positions that require it.
    By amending Title VII in this manner, the Equality Act 
would also draw upon current case law regarding sex 
dissemination. Employers and employees' rights would not need 
to be established as issues of first impression through decades 
of litigation and court opinions, these cases and EEOC 
enforcement guidance to an extent already exist. The Equality 
Act puts sexual orientation and gender identity on a level 
playing field with other sex-based nondiscrimination 
protections.
    In conclusion, manufacturers have been at the forefront in 
providing their employees with fair and meaningful protections 
against sexual orientation and gender-identity based 
discrimination. Partly, this is because talented employees 
demand it. Partly, this is because employers understand the 
importance of creating an environment in which the very best 
people can succeed based on merit.
    There is, however, also a much broader side to this 
discussion, namely manufacturers believe that discrimination of 
any kind is antithetical to the values we work to uphold every 
day. Free enterprise, competitiveness, individual liberty, and 
equal opportunity. These are the four pillars that underpin 
what makes manufacturing strong. These are the values that help 
make our country great. They are also the animating rationale 
behind our support of the legislation. We can do this.
    Thank you, and I look forward to answering any questions 
you may have.
    [The statement of Mr. Hedren follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you for your testimony, Mr. 
Hedren.
    And now they are calling the votes on the House floor. So 
when we come back after votes we will hear from Mr. Lorber and 
Ms. Warbelow, and then we will move into questions.
    So the committee is temporarily in recess until immediately 
after votes.
    [Recess]
    Chairwoman BONAMICI. The Subcommittee on Civil Rights and 
Human Services hearing on the Equality Act, H.R. 5, will 
resume. And I appreciate the patience of everyone waiting 
during the vote series.
    We are now moving to the testimony of Mr. Lorber. And you 
are recognized for 5 minutes for your testimony.

STATEMENT OF LAWRENCE LORBER, JD, SENIOR COUNSEL, SEYFARTH SHAW 
                              LLP

    Mr. LORBER. Thank you. Chair Bonamici, Ranking Member 
Comer, members of the Subcommittee, my name is Lawrence Lorber, 
and I am pleased to be able to present this testimony at this 
most important hearing.
    As I set forth in greater detail in my testimony, I have 
had a long career as an employment and labor lawyer both in 
government positions, in private practice, and with respect to 
major legislative actions.
    I must note that my purpose here today is not to recommend 
whether this committee or the Congress should ultimately decide 
to pass H.R. 5, but rather to offer comments on this 
legislation and to highlight issues which may warrant the 
attention of this committee. I am not testifying today on 
behalf of my law firm, clients, or other affiliations.
    I begin by noting that H.R. 5 differs significantly from 
the prior version of the Employment Non-Discrimination Act 
(ENDA). ENDA dealt primarily with employment issues and has 
evolved to thoughtfully deal with those issues. H.R. 5, 
however, deals with a host of issues and existing statutes. 
H.R. 5 does little other than incorporate sexual orientation 
and gender identity into the definitional provisions of those 
statutes without addressing any of the implementation or 
interpretation issues which should be the subject of some 
focus.
    In particular, H.R. 5 merely includes new protected classes 
into Title VII with no explanation. While it should be noted 
that there are probably more statutory provisions impacting 
employment with different administrative and remedial schemes, 
this has been caused in part by the fact that each new 
protected class brought certain issues which have to be 
specifically addressed. So, when Congress passed the Civil 
Rights Act in 1964, it kept equal pay separate. When Congress 
addressed the issue of age discrimination shortly after the 
Civil Rights Act was passed, it decided not to include age in 
Title VII but created a different statutory framework. The same 
decision occurred with disability issues when the ADA was not 
included in Title VII with respect to employment and when GINA 
was not included in the ADA.
    So simply including sexual orientation and gender identity 
into Title VII without the provisions on protections included 
in all of the various versions of ENDA will leave employers and 
members of the protected class unable to understand their 
obligations or rights.
    For example, ENDA prohibited the collection of data showing 
the status of employees or applicants, as does GINA, the ADEA, 
and the ADA. H.R. 5 has no such protection. And by including 
the employment provisions of H.R. 5 into Title VII, it is 
unclear at least as to whether the EO on data collection form 
will have to now include sexual orientation or gender identity. 
Prior versions of ENDA did not require employers to build new 
or additional facilities. H.R. 5 is silent as to those 
obligations. Prior versions of ENDA permitted employers to 
require reasonable dress and grooming standards as long as they 
were neutral and permitted employees to notify their employer 
that they were undergoing or had undergone gender transition 
and therefore, could assume the identity of their transition 
gender. H.R. 5 is silent. ENDA prohibited the establishment of 
preferences granted to individuals because of the individual's 
sexual orientation or professed gender identity. H.R. 5 is 
silent.
    And there should be one other point emphasized. H.R. 5 
seeks to deal with employment by simply amending Title VII. It 
does not recognize that Title VII does not permit the EEOC to 
issue regulations. Therefore, these issues will be dealt with 
in litigation and the certainty asked for by proponents will 
not be available. Two, it is suggested that provisions of H.R. 
5 will somehow provide a degree of uniformity and consistency 
in the interpretation of all these obligations, but as we well 
know, there is no preemption of State or local, whereby Title 
VII or indeed the other employment laws so that H.R. 5 will 
offer no uniformity or consistency. It will just add another 
layer of legal obligations to the already towering degree of 
legal obligations and restrictions in the employment area.
    I do discuss the issue of the implications of the Religious 
Freedom Restoration Act (RFRA) and how it will coincide with 
H.R. 5. It has been Stated that RFRA, which was overwhelmingly 
passed to deal with serious concerns of religious 
discrimination and which was introduced by leaders of Congress, 
including Senator Kennedy and then Representative Schumer, 
perhaps no longer merits consideration or enforcement. While 
Congress can certainly amend or revoke statutes, it seems 
strange that it will undermine the implications of one statute 
for the purpose of another. It certainly should be possible to 
address the issues raised by the Restoration Act without 
denigrating its importance. RFRA has not faded from the statute 
books.
    I have addressed other issues in my testimony but remain 
willing and anxious to answer your questions. Thank you very 
much.
    [The statement of Mr. Lorber follows:]
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. I thank you for your testimony.
    We now recognize Ms. Warbelow for 5 minutes for your 
testimony.

  STATEMENT OF SARAH GALLAGHER WARBELOW, JD, LEGAL DIRECTOR, 
                     HUMAN RIGHTS CAMPAIGN

    Ms. WARBELOW. Thank you, Chair Bonamici, Ranking Member 
Comer, and members of the committee for welcoming me here 
today.
    My name is Sarah Warbelow. I am the legal director for the 
Human Rights Campaign, our Nation's largest civil rights 
advocacy organization working toward full equality for the 
lesbian, gay, bisexual, transgender, and queer (LGBTQ) 
community. I am honored to provide this testimony on behalf of 
our more than 3 million members and supporters nationwide.
    In addition to testifying today before you, as a legal 
expert on nondiscrimination laws, I do so as a bisexual woman 
who is a proud parent of a transgender daughter and a sister 
and sister-in-law to married lesbian mothers who are beloved by 
their community.
    A system that relies on a patchwork of law to protect LGBTQ 
people facilitates unequal treatment across State lines and 
from city to city. In 28 States there are no explicit, 
nondiscrimination protections on the basis of sexual 
orientation, and in 29 there are none on the basis of gender 
identity.
    While courts and agencies have increasingly interpreted sex 
nondiscrimination laws in our discrimination protections in our 
civil rights laws to include LGBTQ people, enforcing these 
judicially crafted protections requires legal awareness, 
coupled with the financial or other resources necessary to 
bring the case where the question of whether you are even 
covered by law is often contested. This is a luxury that is far 
out of reach for the majority of our community.
    The Equality Act builds upon the legacy of landmark civil 
rights statutes that have made this country a stronger Nation 
that recognizes diversity as an asset and not a liability. It 
is essential that these foundational statutes continue to be 
vigorously enforced by the courts and respected by this body.
    Congress adopted the 1964 Civil Rights Act in an effort to 
dismantle the racist, sexist infrastructure that framed the 
daily lives of people of color and women in this country. 
Recognizing that absent these protections, ordinary people were 
denied the ability to fully participate in public life.
    The Equality Act serves an analogous purpose by providing 
critical protections from discrimination across key areas of 
life, not only for the LGBTQ community but also for all women, 
communities of color, and people of faith. Everyone must have 
the right to fully participate and contribute to public life.
    The Equality Act amends existing civil rights laws, 
including the Civil Rights Act of 1964, the Fair Housing Act, 
the Equal Credit Opportunity Act, the Jury Selection and 
Services Act, and several laws regarding employment with the 
Federal Government to explicitly include sexual orientation and 
gender identity as protected characteristics. The legislation 
also amends the Civil Rights Act of 1964 to prohibit 
discrimination and public accommodations in federally funded 
programs on the basis of sex, including sexual orientation and 
gender identity.
    Additionally, the Equality Act modernizes Title II of the 
Civil Rights Act to provide protections comparable to those 
under many State laws and the Americans with Disabilities Act, 
which would strengthen protections for everyone and more 
accurately reflect the services we rely upon and the places we 
move through in the 21st century. The Equality Act reflects the 
development of sex discrimination jurisprudence to protect 
LGBTQ people.
    Following the Supreme Court's decision in Price Waterhouse 
versus Hopkins, courts and the Federal Government have extended 
the theory of sex stereotyping to develop a clear, legal 
trajectory affirming these protections for LGBTQ people.
    These judicial advances provide LGBTQ plaintiffs with 
meaningful legal recourse. However, they have not provided the 
broad and clear uniform explicit Federal statutory protections 
would bring. The Equality Act would equip individuals with more 
knowledge of their rights to be free from discrimination and I 
am sure that business owners, employers, landlords, and other 
covered entities are aware of their obligations under law. 
Incorporating these protections within the U.S. code would make 
it possible for individuals and businesses to know their rights 
by reading a sign posted in the breakroom instead of heading to 
the courtroom.
    Now is the time to pass the Equality Act. LGBTQ people live 
in every State in virtually every county coast to coast. We are 
your neighbors, coworkers, friends, and family. We are a part 
of the diverse and dynamic fabric of our country. No one should 
be subjected to discrimination based on who they are, whether 
at work, in school, seeking emergency services, or picking up 
the groceries. At its core, the Equality Act would deliver on 
the promise of equal opportunity for all.
    [The statement of Ms. Warbelow follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Thank you for your testimony. Thank 
all the witnesses for your testimony.
    Under Committee Rule 8(a), we will now question witnesses 
under the 5 minute rule. Before we begin, without objection, I 
would like to enter into the record letters of support for the 
Equality Act from the U.S. Chamber of Commerce, the ACLU, and 
the Alaska Air Group.
    Without objection.
    I now recognize myself for 5 minutes.
    Chairwoman BONAMICI. Ms. Shappley, thank you so much for 
being here today to testify about your experience as the mother 
of a transgender daughter. You exemplify bravery and humanity, 
not only by taking control of Kai's education and moving your 
life to a community that would be welcoming for her, but also 
by devoting your time to advocating for protections for other 
transgender kids and their families.
    I have met with families in Oregon, I remember Ella and her 
family, and I know many of them went through similar challenges 
to find safety for their kids. So you talked about the 
inclusive environment in Kai's school in Austin. Can you tell 
us a little bit about how Kai has been affected by this new 
school and what changes you have seen in her since she 
transferred?
    Ms. SHAPPLEY. I think the biggest thing about being in an 
inclusive school district is that Kai is just a kid now. We are 
not focused on other things. You know, her first day of school 
she ran upstairs to write in her diary about using the restroom 
at school. How sad is that? In Austin, they have signs at every 
campus saying that we are an inclusive, safe school. For a mom 
like me that brought healing just knowing that we were not 
going to have to go through this same thing. We were so focused 
on bathrooms and her name and the struggle and the things that 
the superintendent was saying and doing, and way we were being 
treated that we were not focused on her education. Moving to an 
inclusive school district allowed my daughter to realize how 
smart she is and that she loves math and that she loves 
science. And we get to do normal things like normal girl fights 
between her and her peers that have nothing to do with the way 
that she was born.
    Chairwoman BONAMICI. When you think about other kids whose 
families cannot move them to a school like the school in Austin 
where Kai attends now, how would the Equality Act, what would 
that mean to them?
    Ms. SHAPPLEY. It would allow their children to have a fair 
opportunity for an education because I promise you, we were not 
getting the same educational level when they were focused on 
the bathroom, when they were focused on her being transgender. 
She was not getting the education that she was entitled to. And 
everything about Kai changed. Everything about our family 
dynamic changed. That extra stress. You know, kids, especially 
trans kids in schools, they are at higher risk for mental 
health issues and depression and anxiety. And it is not because 
they are transgender. It is because the way they are being 
treated because they are transgender.
    Chairwoman BONAMICI. Right. And I know a lot of the 
homeless youth are LGBTQ. So thank you again.
    Mr. Hendren, Hedren, sorry, thank you for your testimony 
today. You talk about how in 2016 the NAM Board of Directors 
voted unanimously to affirm the support of manufacturers for 
equal treatment in personnel matters without regard to sexual 
orientation or gender identity. And I applaud you for that 
important step. And on this committee we have long supported 
our manufacturing work force. And I appreciate in your 
testimony how you talk about how this bill will bolster the 
manufacturing sector. So some States have already passed 
legislation protecting LGBTQ employees. Have you seen a 
difference in the hiring and competitiveness for your member 
businesses operating in those States?
    And then you mentioned in your testimony also something 
about if someone gets a promotion, you know, for a company that 
is in several different States, how would it affect them if 
they were moving from a State like Oregon with protections to a 
State without? How would that affect them? How would it affect 
the work force?
    Mr. HEDREN. Chair Bonamici, thank you for that question, or 
both of those questions.
    I think what you are hitting on here is a really, really 
important element of where we are as a sector right now. And 
this is sort of broadly speaking but we are all about work 
force. We need to attract people into the sector, and there are 
some misperceptions that sort of persist about what our sector 
really looks like. So, for example, people have an image in 
their head of these sort of dark, dangerous, dirty factories, 
and nothing could be further from the truth. We need to attract 
a work force that reflects that change and who we are toward a 
sector full of innovative and world-changing ideas and 
execution.
    The question about the regionality and the application of 
that I think is going to be a little bit different for each 
company, but I look at a few examples on how this has affected 
companies with whom we work. And in fact, I have a handful of 
letters which I would love to submit into the record on their 
behalf. But I will pull on a couple examples in particular.
    So, for example, General Mills has noticed that for 
talented employees who are offered positions in areas that may 
lack these protections, it may cause them to think twice about 
taking that opportunity. And in a company like General Mills, 
being able to take these rotational opportunities to broaden 
their experience is critical to your growth as a leader.
    Chairwoman BONAMICI. Thank you. And I need to set a good 
example, and I have already gone over time, so please, if you 
will submit the rest with your testimony that would be 
appreciated.
    Mr. HEDREN. I would be happy to.
    Chairwoman BONAMICI. I appreciate it.
    I yield back, and I recognize Mr. Comer for 5 minutes for 
your questions.
    Mr. COMER. Thank you, Madam Chair.
    I am going to address my questions to Mr. Lorber.
    Mr. Lorber, the public accommodations provisions in the 
Civil Rights Act applies to places like hotels, restaurants, 
theaters, and stadiums. H.R. 5 would greatly expand the 
definition of a public accommodation to include an 
establishment that provides a gathering, and any establishment 
that provides a good, service, or program. In your view, does 
the definition of public accommodation in H.R. 5 have any 
limits?
    Mr. LORBER. No, Congressman Comer. As drafted, H.R. 5 does 
not put limits on definitions of public accommodations. Under, 
for example, Title II of the Civil Rights Act of 1964, which 
covers public accommodations, public accommodations are defined 
as hotels, restaurants, and places of entertainment. Section 3 
of the Equality Act expands that as you said to places of 
gathering and any establishment that provides a good, service, 
or program, so it focuses on gathering and program to indicate 
it could cover indeed religious activities.
    Mr. COMER. So could this even apply to a church?
    Mr. LORBER. Yes.
    Mr. COMER. Or other place of worship?
    Mr. LORBER. Sure. Because they do conduct various 
activities which are church-related but are public gatherings.
    Mr. COMER. H.R. 5 requires businesses and nonprofit 
organizations to provide access to facilities such as restrooms 
and locker rooms in accord with an individual's gender 
identity. Could you discuss the challenges that businesses, 
other organizations, and individuals would face in complying 
with this aspect of H.R. 5 and what the implications would be 
if organizations and individuals were not in compliance with 
H.R. 5?
    Mr. LORBER. Sure. I think as I stated in my testimony, 
gender identity is defined by actions and non-innate 
characteristics. While access to shared facilities, 
particularly locker rooms is obviously an open question, it 
seems that with respect to locker rooms in particular, access 
should require more than a mere self-identification, which 
cannot be verified and might change. Employers certainly want 
to follow the law but they also have obligations to their 
employees. Gender identity differs, for example, from the 
transgender community in this regard and employers will be 
subject to all of the damages and other remedial provisions set 
forth in H.R. 5.
    Mr. COMER. So under this bill, would a school have any 
choice other than to allow a biological man to participate in 
women's sports if the man identifies as a woman?
    Mr. LORBER. Well, I do not think it would be appropriate to 
have a male participate in women's sports. As I noted in my 
testimony, there is significant precedent under Title IX 
addressing gender equality. Title IX's regulations at 34 C.F.R. 
106(b) would seem to suggest that the situation raised in this 
question would not occur. Ms. Warbelow's testimony seems to 
suggest this situation only arises when the individual is a 
transgender, but she ends by simply stating that the added 
protected classifications ensure that all students have equal 
access to the field. She cites the Videckis case, but that case 
only dealt with lesbian participants on a women's basketball 
team.
    Mr. COMER. So, would a college or university, a public 
college or university have to award him, if he were on a 
women's basketball team--I am using basketball as an example--
or any sport, a scholarship that would otherwise go to a woman 
if he fit the criteria for the award under H.R. 5?
    Mr. LORBER. Yes, it very well might. It very well might. It 
is not only public schools but private schools do receive 
Federal grants.
    Mr. COMER. That is right through--
    Mr. LORBER. So. it is not only public institutions, and 
yes, they very well might be. The way the bill is drafted it is 
so broad that it would not exclude that.
    Mr. COMER. So, would schools have any recourse to protect 
the rights of women to have access to these opportunities under 
H.R. 5?
    Mr. LORBER. Well, they should but the problem again with 
this bill is we are sort of overlapping on various rights. 
Title IX was passed specifically to afford women rights to 
participate in all activities, including sports. We now have 
this bill, which by its terms would seem to change that and at 
least bring into question the rights of women, if not negate 
them.
    Mr. COMER. Okay. Well, these are some of the concerns that 
I mentioned in my opening statement, and I am sure we will have 
further questions.
    I yield back, Madam Chair.
    Chairwoman BONAMICI. Thank you, Mr. Raking Member.
    I now recognize the chairman of the full committee for 5 
minutes for your testimony, or excuse me, for your questions, 
Mr. Scott from Virginia. Chair Scott.
    Mr. SCOTT. Thank you. Thank you.
    Mr. Hedren, can you say a little bit more about the 
business case for the passage of these laws? How attractive or 
unattractive is a State trying to recruit businesses based on 
the laws of the State in this area?
    Mr. HEDREN. Mr. Chairman, thank you for that question.
    I think suffice it to say, our members have been remarkably 
clear with us, with me and my team, that this is of huge 
importance to them. So, one other example that I can raise is 
that of Dow, which finds that this is a differentiator for them 
in attracting talent around the country because they are not 
really located for the most part in urban areas or in States 
that already provide protections like this, including as I 
understand it, in their home State. But because they do provide 
protections like this, they are able to attract employees that 
are talented and in areas where they otherwise might lack 
protections in the broader community but get them inside the 
fence line, so to speak.
    So it is a big deal, and in fact, they have found that not 
only is there a case to make in terms of talent and protecting 
employees and equality and nondiscrimination, but there is also 
a business case to be made for it. So they identified that 
their costs of implementing unilaterally protections for these 
employees have gone down on the whole because attracting and 
retaining talented employees is expensive in itself.
    Mr. SCOTT. Thank you.
    Ms. Warbelow, we had a suggestion that laws like this are 
costly and unworkable. Although most States do not have 
protections, many do. What has been the experience in terms of 
costliness and workability of these kinds of laws?
    Ms. WARBELOW. Yes. Thank you for that question.
    You know, States across this country and hundreds of 
municipalities have adopted nondiscrimination protections that 
include sexual orientation and gender identity. When we look at 
the data, we find that rates of complaints for sexual 
orientation and gender identity are about on par when you 
compare per percentage of the population to complaints based on 
sex or based on race. What this demonstrates is that laws like 
the Equality Act are critically needed, but that they do not 
place a huge burden on businesses. In fact, the vast majority 
of the Fortune 500 companies are already providing some level 
of protection to their employees. But what they want to make 
sure of is that their employees have those full protections 
outside of the four walls that they control. So when their 
employees are attending night programs for schooling, when they 
are purchasing a house or looking for an apartment, or when 
they are going out to dinner with their families.
    Mr. SCOTT. Thank you.
    And can you say a word about the religious exemption and 
whether or not it can be used as a defense under the Equality 
Act?
    Ms. WARBELOW. So existing statutory protections within the 
Civil Rights laws remain in place. Religious employers are able 
to continue to limit or prefer employees of their own religion. 
There are exemptions in the Fair Housing Act that remain in 
place. What the Equality Act does is it limits the application 
of the Religious Freedom Restoration Act with respect to this 
set of nondiscrimination laws. And when Congress passed the 
Religious Freedom Restoration Act, it clearly contemplated that 
this would be necessary at some point in the future. In fact, 
it statutorily provides for an exemption in future laws.
    This does not eliminate the Religious Freedom Restoration 
Act. The Religious Freedom Restoration Act will continue to 
exist and will be available in instances in which the Federal 
Government is itself discriminating against individuals.
    For example, in 2014, a sick employee of the Federal 
Government was prohibited from carrying an article of her faith 
into Federal buildings so that she could go to work. She 
successfully used RFRA to change the Federal Government's 
policies and practices. RFRA will continue to be available in 
circumstances like these.
    Mr. SCOTT. Thank you.
    Madam Chair, I ask unanimous consent to enter into the 
record documents from the National Women's Law Center and 
congressional Research Service that detail the history of the 
Civil Rights Act of 1964 and the interaction of several of the 
titles, especially Titles VI, VII, and IX.
    Chairwoman BONAMICI. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. SCOTT. Thank you. I yield back.
    Chairwoman BONAMICI. Thank you.
    Without objection, I would also like to enter into the 
record letters of support from Women's Rights and Gender 
Justice organizations in support of full and equal access to 
participation in athletics for transgender people, and also 
letters from the Business Coalition for the Equality Act that 
lists many employers and associations across the country in 
support of the Equality Act.
    Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. And I now recognize Ranking Member 
Foxx from North Carolina for 5 minutes for your questions.
    Ms. FOXX. Thank you, Madam Chairman. And I want to thank 
our witnesses for being here today.
    Mr. Lorber, you State in your written testimony that the 
definition of gender identity in H.R. 5 is not clear. Do you 
anticipate that H.R. 5's definition of gender identity will 
create uncertainty or even more dire consequences for 
organizations and individuals subject to the bill's 
requirements? Can you expand on the problems that are created 
when Congress enacts a new legal requirement but does not 
clearly define what that requirement entails?
    Mr. LORBER. Thank you, Congressman Foxx.
    As my testimony explains, the definition of gender identity 
does not provide any definitive definition. As noted in my 
testimony and Ms. Warbelow's, the Hopkins decision did 
interpret Title VII to prohibit discrimination based on 
mannerisms or sex stereotypes. The definition of gender 
identity, including appearance or other related gender 
characteristics, either simply replicates the Hopkins decision 
or goes further than mannerisms and related appearance. Thus 
so, the obligations place on employers in section seven, 
grantees in sections three and six, in places of accommodation 
in which the coverage will be extremely amorphous. We have seen 
this situation where definitions are not well crafted where the 
Congress had to amend the ADA 20 years after initial passage 
because it believed that the Supreme Court misapplied the 
definitions of disability.
    So the definition of gender identity, or the lack of a 
definition, could well lead to years of unnecessary litigation 
and uncertainty for employers and individuals.
    Ms. FOXX. Thank you.
    Mr. Lorber, supporters of H.R. 5 say the legislation will 
not infringe on religious liberty. Can you explain to the 
subcommittee what the legal effect is of the provision in H.R. 
5 stating that the Religious Freedom Restoration Act of 1993 
(RFRA) shall not provide a claim or defense to claims under 
provisions of the Civil Rights Act amended by H.R. 5? Does this 
provision eliminate the ability of organizations and 
individuals to assert their rights under RFRA in the countless 
matters covered by H.R. 5?
    Mr. LORBER. Thank you, Congresswoman.
    The Religious Freedom Restoration Act was enacted to ensure 
that there would be no government imposition on religious 
observance and practice. It is and was a Civil Rights Act and 
it is still a Federal law. H.R. 5 creates an anomalous 
situation whereby it States that one Federal law involving 
civil rights addressing sexual orientation and gender identity 
overwhelms and overrides another Federal civil rights law 
addressing religion. I would note that the findings in RFRA 
State, ``Laws neutral toward religion may burden religion 
exercise as surely as laws intended to interfere with religious 
exercises.'' So that by summarily negating RFRA, H.R. 5 would 
seem to negate the protections that RFRA was enacted to 
protect. Federal statutes must be read and interpreted to 
preserve their purpose. H.R. 5 seems to supplement one statute 
with another. It would seem, therefore, that section 1107, the 
claims misapprehends the purpose of RFRA and should be 
reconsidered and frankly deleted as inappropriate in the 
context of a civil rights law.
    Ms. FOXX. Thank you, Mr. Lorber.
    One more question. H.R. 5 expands Federal discrimination 
law to prohibit actions based on a perception even if 
inaccurate, that an individual is of a certain race, color, 
religion, sex, national origin, sexual orientation, or gender 
identity. Do you have concerns with how this provision would be 
interpreted and enforced and whether there would be 
difficulties with compliance?
    Mr. LORBER. Well, yes. In one respect the provision seems 
to adopt in part the standard in the ADA that acting on an 
assumption of a disability, whether a disability is in effect 
or not, violates the ADA if the underlying action would violate 
the law. Under Title VII it is already clear from the Hopkins 
decision that negative inferences cannot be drawn from 
mannerisms. If, however, gender identity remains as ill-defined 
as it is with no specifications, then employers or managers of 
public accommodations, for example, may find it extremely 
difficult to establish policies to deal with the requirements 
of H.R. 5. Perception is a difficult standard under the law 
since it establishes a liability, frankly, on a non-fact. The 
question is highlighted when the underlying protection is so 
ill-defined. So the question of perception discrimination, 
particularly with H.R. 5 as it defines its various new covered 
classes will remain and become, I think, a substantial 
imposition on employers simply to know what they have to do.
    Ms. FOXX. Thank you very much.
    Madam Chairman, I yield back.
    Chairwoman BONAMICI. Thank you, Dr. Foxx.
    I now recognize Representative Hayes from Connecticut for 5 
minutes for your questions.
    Ms. HAYES. Thank you, Madam Chair. I would also like to 
thank the witnesses who are here today before this committee 
for your testimony.
    I am a career educator who just came to Congress and I have 
always held one very central value, that every child, no matter 
their background, their identity, their community, their 
diversity, matters. And I hear a lot about employers and people 
who abuse policies and how are we going to enforce policy. I 
want to hear more about the people because these kids matter.
    Ms. Shappley, you should not have to advocate for the right 
for your child to be treated equally in the classroom. That 
should be a given, and we should do our job to make sure that 
happens. And you should not have to move your child to a new 
school district for fear of their safety and their ability to 
learn. I am sorry that happened to you and your daughter. You 
should not have to figure out how to advocate for your child. 
That is our job, too. Our educational system should be built in 
such a way that all students of all ages know that they will be 
treated with dignity and respect and will be safe in school.
    As I was preparing for this hearing, I made a phone call to 
our Connecticut Kid Governor, a 10-year-old girl. Her name is 
Ella Briggs. And her entire platform was safe spaces for LGBTQ 
youth. And 6,000 kids in the State of Connecticut voted for her 
to become our Kid Governor. And she has advocated fiercely for 
her community because she recognized and she understood that 
while she had parents who were supportive and empowering and 
loved her unconditionally, not every child has that. And she 
felt bad for them. And this 10-year-old recognized that we have 
to do something. That the adults have to do something. Her 
inauguration was one of the very first events that I attended 
as the Congresswoman from Connecticut's Fifth District, and I 
promised Ella that I would bring her voice and her concerns to 
Washington. So I am very happy, Madam Chair, that we are having 
this hearing and for you all for coming and sharing your 
testimony because Ella cannot be here. These kids cannot speak 
for themselves, so they need for us to stand up and speak for 
them.
    Ms. Shappley, I mean, we know the statistics. You know, 30 
percent of kids are missing either classes or full days of 
school because they do not feel welcome, they do not feel safe, 
that most of our homeless youth population is comprised of 
children that come from LGBTQ community. I have seen kids 
transition out, being kicked out of their homes, and end up not 
graduating high school or having any opportunity for success in 
the future. And I will tell you, whether it is the LGBTQ 
community, whether it is religious freedoms, whether it is 
ethnic backgrounds, I always operated with one question in 
mind. Is this the education I would want for my child? And I 
challenge everyone to ask themselves that same question. Would 
this be acceptable for your child?
    Ms. Shappley, you talked a little bit about having to go to 
the school and advocate. Can you help us understand a little 
bit better? Because the kids get it. The adults are the ones 
that need an education on how to respond. Ella's platform 
includes teaching teachers how to respond. Can you help us 
understand how you advocated for Kai to the adults in her 
community?
    Ms. SHAPPLEY. Thank you. I think for the adults in the 
community that want to advocate for Kai or for all kids is to 
educate themselves. The HRC, the ACLU, Equality Texas, there 
are resources out there to give you the information so that you 
have a good knowledge of what the statistics really are. 
Approximately 41 percent of transgender youth will attempt 
suicide. Right? That is not acceptable.
    We need communities. My daughter needs communities to stand 
up. We need allies. Go to the schools. Go to the school board 
meetings. Speak up. Shut down homophobic rants. If your pastor 
at your church is not affirming to the LGBTQ community, have a 
meeting with them and discuss why that might be, and maybe even 
consider whether your tithes should go to a different church 
that is affirming of LGBTQ kids because I think that we are 
missing the whole point of the gospel when we sit in places 
that are not teaching love.
    Ms. HAYES. Thank you. I appreciate that.
    I also know that many adults, their biases move forward 
with them. I have seen higher rates of discipline amongst 
students who identify as LGBTQ because the adults do not know 
how to respond. And it is very interesting that you brought up 
religion because I was thinking about that. When we are talking 
about gender identity as a choice and it is not innate and it 
can be changed at any time, we would never question someone's 
religious beliefs which is also a choice and not innate and can 
be changed at any time. So I just think we have to look at this 
differently and educate ourselves because these kids are 
relying on us to get it right. Thank you.
    Chairwoman BONAMICI. Thank you, Representative Hayes.
    I now recognize Dr. Schrier for 5 minutes for your 
questions.
    Ms. SCHRIER. Thank you, Madam Chair.
    Thank you, first, to all of the witnesses, and Ms. 
Shappley, thank you for sharing your story. I found it 
particularly touching and so moving. And Kai is so lucky to 
have you as her mom. You are her best advocate and such a 
supporter. And you listened, and you heard, and you learned and 
you did the right thing. And unfortunately, it required you to 
go leaps and bounds beyond where you would have to. And 
unfortunately, not all parents are so supportive, and that is 
really what troubles me. I am a pediatrician, and so I see 
these kids as they grow up, and I know that many parents are 
not as supportive as you are. And this is one of the reasons 
that so many transgender teens become homeless teens.
    I wanted to tell you about one, and part of this is--you 
may know this story, but part of it is for my colleagues so 
that they understand what kids go through.
    So this is one of my patients, and first, for the sake of 
confidentiality, because I cannot use names, we are going to 
call him Sam. And he comes from a family probably a lot like 
yours. A very religious family. A very loving family. But he 
knew that he could not talk with them about who he was and how 
he felt and that he was in the wrong body. And so he came to me 
because I was the only safe person for him to talk to. And I 
was in the medical office and I shudder to think about all 
these kids who do not have a safe place even in the doctor's 
office.
    He would come in for little things. I mean, practically a 
broken fingernail, just so he would have somebody safe to talk 
with because he could not talk to a teacher. He could not talk 
to his parents. He came in. I tried to help by saying, hey, I 
will sit in the room with you. We can have this conversation 
together. But he knew that if that happened he would be kicked 
out of the house. And so we planned together. And I got him 
through a few years until he went off to the University of 
Washington where he could explain to his parents who he is, 
feel safe in his own skin and in his environment, and finally, 
at age 18, be okay.
    So one of my frustrations that I think you share is just 
this failure of imagination and this failure to be able to be 
empathetic in our country. We do not support stem cell research 
until our own kid has a disease that could be helped from it. 
We do not support marriage equality until our own child wants 
to get married to the person they love. And so I am so 
impressed that you are involved in,--and I have to refresh the 
faith outreach coordinator for Equality Texas because I think 
that is the way to change hearts and minds.
    I wanted to see if you could talk a little bit about your 
experience there and about how it is going. How are you getting 
through to people and changing hearts and minds?
    Ms. SHAPPLEY. Thank you. It started out that I just needed 
Equality Texas because I went to them when I needed help for my 
daughter to be able to use the restroom. And I do not even know 
how it happened. Now I am just on the team, right, because I 
needed them. I still need them. And I mean, who takes on 
somebody with a ministry background and says, hey, do you want 
to work for this LGBTQ group? Why not? So I literally had to 
move from being a homophobic person into advocating for the 
community that I used to be so afraid of. And I think that just 
by telling our story, Kai and I just tell our story over and 
over and over. And we just get blessed. Doors keep opening for 
us to share in the most unlikely of places. We speak at 
affirming churches. We speak at non-affirming churches. We 
speak at many Baptist churches, Methodist churches. We speak 
privately with pastors of mega churches and we speak publicly 
with them. And we just continue to tell our story because we 
believe that there is power in testimony and we stay true to 
our faith. And I believe that is all we can do, and we just 
continue to have faith that it will be effective.
    Ms. SCHRIER. Thank you. And thank you for doing that hard 
and really important work.
    I also just wanted to make a couple comments for the 
record. First is that I know that when we are talking about 
bathrooms and bathroom safety, that the only person at risk 
right now is my patient Sam. He is the one who is subject to 
being injured. And I just want to say that it is maddeningly 
frustrating to hear all this discussion about the bathroom. I 
would say similarly about sports. Nobody chooses this so that 
they can win a race or they can be a football star. That we 
need to look out for these kids and young adults and make sure 
that they are welcome.
    So thank you. I am out of time.
    Chairwoman BONAMICI. Thank you, Dr. Schrier.
    I now recognize Representative Lee from Nevada for 5 
minutes for your questions.
    Ms. LEE. Great. Thank you all for being here and talking 
about this important act.
    I wanted to first ask you, Mr. Hedren, you Stated that 
manufacturers believe that discrimination of any kind sharply 
contrasts with the four values of free enterprise, 
competitiveness, individual liberty, and equal opportunity, and 
that these four pillars underpin what makes manufacturing 
strong. Can you expand on how the Equality Act will help 
further these values?
    Mr. HEDREN. Thank you, Representative Lee, for that 
question. And in fact, I would like to make a quick point.
    So in 2016, when the NAM officially adopted a policy 
position making clear our opposition to discrimination on the 
grounds of sexual orientation or gender identity, which by the 
way was a longer running and longer held belief, just recently 
this spring the NAM Board of Directors adopted the four pillars 
explicitly as part of the policies that we advocate for. And 
that was a big moment for us. And it is for reasons just like 
this.
    These are important because these are about our work force. 
These are about our perception in the community. This is about 
talent. This is about doing the right thing in the market. And 
we are frankly in a place that I think has surprised some 
people. Our members have gone farther, faster than I think many 
people expected. Is that perfection? No. There is always more 
to go. But I look at examples of companies like Cargill, that 
have had explicit protections and a perfect record on the 
Corporate Equality Index for 15 years running. Cargill is a 
company that is located all over the world with thousands of 
facilities globally. And they find value in affirming these 
values for their work force, for their customers, and for their 
broader communities. So these are very, very important 
protections to those who adopt them.
    I would also actually like to take the opportunity to 
mention Salesforce, a company we are not as often associated 
with which, like many larger companies, manages a corporate 
program, like an affinity group, which is a company-sanctioned 
group for folks of particular characteristics that come 
together and have a place to talk and network and address the 
issues of the day. And in their LGBT affinity group, they found 
that many people join not because of themselves and their own 
orientation or identity but because of their families, because 
of their children, because of their communities. I hope that 
is--
    Ms. LEE. No, that is great. Thank you very much.
    Yes, I just wanted to followup. I am really proud of two 
major employers in Las Vegas, Nevada, Caesar's Entertainment 
and MGM Resorts support this legislation and are a part of the 
Business Coalition for the Equality Act that we are discussing 
today. How do you think these values might extend to businesses 
beyond manufacturing?
    Mr. HEDREN. Thank you for that question, Representative.
    I think to a certain extent I need to be a little cautious 
about describing issues that go beyond our industry because 
really what I can talk to is what manufacturers are living now 
and dealing with in their own work forces. So I do hesitate to 
go extend into other industries too far.
    I think that when you look at the list of companies that 
have come out, for example, as part of the human rights 
campaign's collection of now over 180 companies, I understand 
looking at my co-panelist, and she is nodding, that obviously 
extends well beyond our sector and I think gives you an example 
of companies like Caesar's and MGM that would not be our 
members, although perhaps who make the chips, but that also 
have found it valuable for their own reasons to come out in 
favor of protections like these.
    Ms. LEE. Thank you. Yes, I am really proud of my State that 
we champion inclusion across the board, whether it is 
employment practices, educational attainment, or health care 
for transgender individuals.
    Can you tell us how discrimination against LGBTQ 
individuals in public accommodations, including access to 
health care impacts business?
    Mr. HEDREN. Thank you for that question as well.
    As I mentioned before with one particular example from Dow, 
the value of these protections extends beyond the fence line. 
So in some cases in facilities this may be the only place in a 
community where employees may feel protected and welcomed. The 
value of these protections obviously extends beyond that. Then, 
again, to a certain extent, I am not actually able to talk 
about some of the issues that other industries might face here, 
but suffice it to say that being able to feel safe in your 
community, and like where children can go to school and be 
treated with love, kindness, and fairness is important to 
employees no matter what.
    Ms. LEE. Great. Thank you. I yield.
    Chairwoman BONAMICI. Thank you. And I now recognize 
Representative Trone from Maryland for 5 minutes for your 
questions.
    Mr. TRONE. Thank you, Madam.
    Before I ran for Congress I ran a successful business with 
over 7,000 employees. And for more than a decade before same 
sex marriage became legal in this country, we offered partner 
benefits for health insurance to all of our team members. I say 
that not because I am looking for a pat on the back. You do not 
get a pat on the back for doing what is right. I say it because 
we built an inclusive workplace. I know it can be done. I know 
it is time to ensure every American is protected from 
discrimination at work.
    Mr. Lorber, I understand the purpose of your testimony 
today is not to recommend whether or not Congress should pass 
the Equality Act. Without endorsing any specific legislation 
and drawing on your vast experience in a private practice and 
in government on employment issues, do you feel LGBTQ 
individuals deserve to be protected against discrimination in 
the workplace? Would you expand on that?
    Mr. LORBER. Sure. I think LGBTQ individuals should be 
protected, and indeed, three courts of appeals in employment 
have already held that they are protected under the law so that 
the issue in my view is not protection, though that is 
critically important and there should be protection for LGBTQ 
individuals. The real question is passing this encompassing 
statute which amends a variety of other statutes without 
definition and without guidance seems to me is just simply an 
invitation to unnecessary litigation. It is an invitation to 
unnecessarily confusion. As I said in my testimony, there was 
previous legislation, the Employee Nondiscrimination Act, which 
over time evolved into a fairly definitive set of guidance, 
rules if you will, as to what it meant. What we are talking 
about here is a quite different beast, if I could use that 
term, where we are simply throwing out protections without 
definition. We are dealing in a case of RFRA with another 
statute, and we are in the anomalous position of simply saying 
it does not matter and it does not apply except when it does. 
And that to my mind is just not an appropriate way of dealing 
with these issues.
    But just to conclude, and I apologize for taking this time, 
absolutely LGBTQ folks should be protected, in school and in 
the workplace.
    Mr. TRONE. Well, at least we have agreed on that point. 
Thank you.
    Mr. LORBER. Well, yes, we never disagreed. It is just how 
it is to be done and is it to be done in a statutory manner 
which simply does not make it, in my view, a lot of sense.
    Mr. TRONE. Mr. Hedren, the National Association of 
Manufacturers recently joined a letter with 40 associations in 
support of workplace nondiscrimination protections contained in 
the bill.
    Madam Chairwoman, I would like to submit that letter for 
the record.
    Chairwoman BONAMICI. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. TRONE. Mr. Hedren, from my understanding, this level of 
support is new. Why do you believe all these groups have come 
together now to call on Congress to support the Equality Act?
    Mr. HEDREN. Thank you, Representative Trone. And thank you 
for entering the letter into the record as well. I know that is 
important to us and to others who signed on to it.
    Why now is a really, really good question. And I think the 
answer is a little bit, to play off of my co-panelists and talk 
a little bit about what has been going on in the trajectory of 
cases in the Federal Courts. The State of affairs for 
protections for LGBTQ individuals is a little bit confused and 
it depends a little bit on where you sit. Actually, more than a 
little bit. And because of that, I think employees and 
employers are at times unclear what their obligations are under 
the law and what will apply to them. So I would actually 
disagree respectfully with my co-panelists and say the value of 
statutory clarity is that it puts on notice both employers and 
employees as to what rights look like and more or less how they 
work.
    Now, I will also say that I do share my co-panelists' 
concerns with the thought of litigation that could run for 
years to explain these issues further. And I would posit that 
this type of litigation is not necessarily a good thing for 
employers or for employees. But I do think that is the 
opportunity that we have now is to work through these questions 
where reasonable lawyers may disagree and to find the right way 
to get them done. And for that reason I am grateful for the 
chance to work with the committee and other Members of Congress 
to do that this term.
    Mr. TRONE. Thank you.
    I yield the balance of my time.
    Chairwoman BONAMICI. Thank you, Representative.
    I am now going to move to the members of the full committee 
who are not members of the subcommittee. We are glad they are 
here today, and I recognize Representative Takano from 
California for 5 minutes for your questions.
    Mr. TAKANO. I thank Chairwoman Bonamici for this important 
hearing. And as co-chair of the LGBT Equality Caucus and as a 
former teacher, I want to ensure that schools are welcoming 
places for all students regardless of their gender identity or 
sexual orientation. And I want to make sure that, you know, 
workers in workplaces are protected from discrimination. I want 
to make sure that people, LGBT people who want to buy something 
in a store or go to a hotel or do business with anybody who is 
in the marketplace, that they are covered under the public 
accommodations portion of this law. All Americans, and 
especially children, deserve equal protection under the law. No 
person, no matter where they live in this country, should face 
discrimination.
    Equality should not depend on the zip code where you live. 
All students should be allowed to receive an education without 
fear of discrimination, which is why I am proud to be a co-
sponsor of the Equality Act. California, along with 14 other 
States and the District of Columbia, have laws prohibiting 
discrimination against students in public education on the 
basis of sexual orientation and gender identity. With two 
States prohibiting discrimination on the basis of sexual 
orientation, it is beyond time that we have a Federal law 
ensuring protections for the most vulnerable in our communities 
no matter where they live. When students attend schools they 
should receive a good education, not bullying or mistreatment 
because of who they are.
    Ms. Shappley, I, too, was really moved by your testimony. 
And just the journey you have traveled as a mother. But I know 
you are a school nurse and I assume you have seen your fair 
share of students who have come to you attempting to get out of 
school. Can you tell me more about that?
    Ms. SHAPPLEY. Yes. And I am a middle school nurse. And, 
yes, we do have LGBTQ kids in the schools that need extra love. 
Yes.
    Mr. TAKANO. Extra love. I do not know why that kind of hit 
me emotionally but you did.
    I was a middle school teacher at one point, too. And I 
remember having a transgender about 20-25 years ago, even as a 
gay person, I did not quite understand transgender myself then. 
But I knew this student was being bullied. And did not have the 
tools as a teacher. Administrators did not have tools to deal 
with the bullying. And there really was not a law that this 
young person could use to seek protection. We know that many 
students are facing some sort of bullying. And would you also 
say, Ms. Shappley, it is kind of fair to say that it is 
sometimes true that educators do not want to know that there is 
bullying or that it is hard to know that it is going on?
    Ms. SHAPPLEY. Yes, I would say that is true.
    Mr. TAKANO. What are some of the social and emotional 
consequences of discrimination for gender identity and sexual 
orientation in schools?
    Ms. SHAPPLEY. Well, in a bigger picture I guess is the way 
that I can answer that. Okay?
    Mr. TAKANO. Yes.
    Ms. SHAPPLEY. So we have these kids who have peers that are 
bullying them. There are teachers who decide that they do not 
want to intervene because maybe they agree with the kids that 
are bullying these kids. That was the case for us. I mean, my 
child was bullied by her peers but there were staff members who 
chose to look the other way. And I believe that the staff 
members who were consistently calling her by the wrong name 
were bullying her as well. They knew that this was hurting her 
but yet they consistently did it and that to me is bullying.
    Like I said earlier, transgender kids specifically, but 
LGBTQ kids, they are at higher risk for mental health issues 
and for physical health issues, and it is not because they are 
transgender. It is because of the way they are treated.
    Mr. TAKANO. It is sad to know that there are adult teachers 
who do not understand and would passive aggressively 
intentionally call a student by a name that student does not 
want to be called by because of their beliefs.
    Ms. SHAPPLEY. Correct.
    Mr. TAKANO. That is a disrespect to that student.
    My time is running out. I wish we could talk a lot more 
about bringing this story more to light, but I appreciate your 
being here today. And I want to just urge all my colleagues in 
the Congress to pass the Equality Act. The time is long 
overdue.
    And I yield back.
    Chairwoman BONAMICI. Thank you, Representative.
    I now recognize Representative Davis, the chair of the 
Higher Education Subcommittee, for 5 minutes for your 
questions.
    Ms. DAVIS. Thank you, Madam Chair.
    Ms. Warbelow, I wanted to ask you thank you all for being 
with us today. We appreciate it.
    Federal law currently prohibits juror discrimination on the 
basis of race, color, religion, sex, national origin, and 
economic status. But as I think you well know, there are no 
clear protections for those in the LGBT community. Why is it 
important to amend the Jury Service and Selections Act to 
include LGBTQ people?
    Ms. WARBELOW. Thank you for that question.
    You know, discrimination in jury service undermines our 
democracy, and it is a serious problem. There was a case in 
which a gay man was stricken from a jury based on his sexual 
orientation because the attorneys believed that he could not be 
unbiased in contemplating a case involving HIV medications. 
This was not only damaging to him as a member of our society, 
but also damaging to the process, ensuring that all Americans 
have an opportunity to have a jury of their peers and that all 
instances and issues that crop up in daily life are fairly 
considered by a cross section of the American population. And 
that is one of the reasons that the Equality Act amends this 
critical area of law.
    Ms. DAVIS. And have you seen clear evidence that happens? 
That there really is not that opportunity to make sure that 
actually it is a fair hearing?
    Ms. WARBELOW. You know, it is very much jurisdiction by 
jurisdiction. And it is a very small number of States that have 
tackled this issue. We really need to make sure that it is 
nationwide for all of our Federal courts.
    Ms. DAVIS. Thank you. We have been working on it for some 
time, so I appreciate that.
    Ms. WARBELOW. Thank you.
    Ms. DAVIS. Ms. Shappley, I want to thank you also for your 
very frank, honest testimony. My colleague, Mr. Takano, just 
asked you a question about the schools. We see that it made a 
really big difference for Kai when she found a safe and healthy 
environment. What do you think schools across the country need 
to do far better then? You just spoke about the staff 
involvement, of teacher involvement, and sometimes it ends up 
being more negative. What do they need to do better and really 
focus in?
    Ms. SHAPPLEY. I think that there needs to be some 
continuing education for teachers and staff. For some of these 
teachers that have been around for a while, perhaps they have 
not been educated on LGBTQ issues. I think that would be a 
great place to start is just by educating. I think that we have 
to look at leadership. We have to look at leadership, 
superintendents and, you know, principals. Your teachers are 
going to follow what their leaders set as an example and the 
tone for the school. And I think that is a great place to start 
is just to try to get people to understand that discrimination 
is wrong and that they are hurting these children. People go 
into education because they love children and they want to do 
good things for children. And I think that if we arm them with 
the education that they need they would make good choices for 
these children.
    Ms. DAVIS. Thank you. It is a good message. Whatever 
setting you are in, it starts at the top.
    Thank you. I appreciate you being here.
    Chairwoman BONAMICI. Thank you, Representative Davis.
    Before we move to closing, I would, without objection, like 
to enter into the record letters of support for the Equality 
Act from the American Association of University Women; a letter 
or a map showing from the Human Rights Campaign the States that 
have addressed discrimination, and importantly, the States that 
have not; a letter from the National Women's Law Center; and a 
letter from the National Center for Transgender Equality.
    Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. I remind my colleagues that pursuant 
to committee practice, materials for submission for the hearing 
record must be submitted to the committee clerk within 14 days 
following the last day of the hearing, preferably in Microsoft 
Word format. The materials submitted must address the subject 
matter of the hearing. Only a member of the committee or 
invited witness may submit materials for inclusion in the 
hearing record. Documents are limited to 50 pages each. 
Documents longer than 50 pages will be incorporated into the 
record via an internet link that you must provide to the 
committee clerk within the required timeframe, but please 
recognize that years from now that link may no longer work. 
That is my favorite part of this.
    So again, I want to thank the witnesses all for your 
participation today. What we have heard is very valuable. 
Members of the committee may have additional questions for you. 
We ask the witnesses to please respond to those questions in 
writing. The hearing record will be held open for 14 days to 
receive those responses.
    And I remind my colleagues that pursuant to committee 
practice, witness questions for the hearing record must be 
submitted to the majority staff or committee clerk within 7 
days. The questions submitted must address the subject matter 
of the hearing.
    I now recognized the distinguished ranking member, Mr. 
Comer, for his closing statement.
    Mr. COMER. Thank you, Madam Chair, for yielding. It is very 
clear this is a difficult subject, and I appreciate you all 
coming to testify here today.
    What is clear is that this bill is not ready to become law, 
and Mr. Lorber discussed several significant concerns with the 
scope and application of the language in H.R. 5, specifically 
our concern with what it does to the Religious Freedom 
Restoration Act, unfunded mandate in public schools, as well as 
the disarray it could potentially create in women's high school 
sports.
    And to that point, I have several letters and documents I 
want to include in the record which will highlight several 
concerns with the bill.
    The first letter is in opposition from the Council for 
Christian Colleges and Universities; a letter from seven 
medical professional organizations expressing their concern; a 
letter from Women's Liberation Front; a letter from the 
American Association of Christian Schools noting the harm the 
Equality Act would cause to Christian education in America; 
ACSI, Association of Christian Schools International expressing 
concerns with respect to the Religious Freedom Restoration Act; 
a letter from the Family Policy Alliance; a letter from the 
United States Conference of Catholic Bishops in opposition to 
H.R. 5; a letter from more than 50 religious faith-based groups 
writing about the harm the Equality Act does to religious 
freedom; and finally, a Wall Street Journal article I would 
like to submit to the record.
    Chairwoman BONAMICI. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman BONAMICI. Without objection.
    Mr. COMER. Thank you, Madam Chair, and I yield back.
    Chairwoman BONAMICI. Thank you.
    I recognize myself for the purpose of making a closing 
statement.
    Thank you again to our witnesses for taking part in this 
important discussion.
    Every day LGBTQ Americans across the country are living 
without the guarantee of basic civil rights protections. As we 
heard throughout this hearing, that vulnerability is not merely 
theoretical. LGBTQ Americans and their families, like Kai and 
her mother Kimberly, like Ella I mentioned back in Oregon, and 
millions across the country continue to face discrimination 
because of who they are. This is wrong, plain and simple.
    The Equality Act is our opportunity to right that wrong. By 
amending civil rights legislation to explicitly include gender 
identity and sexual orientation as protected characteristics, 
the Equality Act would ensure that LGBTQ Americans can be safe, 
secure, and free from discrimination.
    There will likely be a time, perhaps in the near future, 
when we will look back at this moment with a sense of 
inevitability. As with many civil rights victories of the past, 
we will say that history was always on our side and that the 
guarantee of protections for LGBTQ Americans was only a matter 
of time.
    But we must acknowledge that the arc of the moral universe 
does not bend toward justice on its own. It is our 
responsibility, now, today, it is time to make clear that all 
Americans should be able to have full confidence in their 
rights regardless of who they love, or who they are, or how 
they identify.
    I look forward to working with my colleagues to reaffirm 
our commitment to civil rights and to forge a country where 
everyone has the right to be who they are free from 
discrimination.
    And if there is no further business, without objection, the 
committee stands adjourned.
    [Additional submissions by Chairwoman Bonamici follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Intersecting Injustice: A National Call To Action: https://
www.govinfo.gov/content/pkg/CPRT-116HPRT38141/pdf/CPRT-
116HPRT38141.pdf
    UCLA School of Law Williams Institute: https://
www.govinfo.gov/content/pkg/CPRT-116HPRT38142/pdf/CPRT-
116HPRT38142.pdf
    [Additional submission by Mr. Comer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submissions by Mr. Hedren follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 4:25 p.m., the subcommittees was adjourned.]

                                 [all]
</pre></body></html>
